Appendix C: Judgment

18

Case 3:16-cv-03127-WQH-AGS Document 57 Filed 03/28/19 PageID.424 Page 1 of 1

United States District Court
SOUTHERN DISTRICT OF CALIFORNIA
Kelly Frithiof Sundberg
Civil Action No. 16-cv-3127-WQH-AGS
Plaintiff,
V.

JUDGMENT IN A CIVIL CASE

Harold Oreol, Executive Director of
Patton State Hospital
Defendant.

Decision by Court. This action came to trial or hearing before the Court. The issues have been tried
or heard and a decision has been rendered.
IT IS HEREBY ORDERED AND ADJUDGED:
Both Report and Recommendations in this matter are adopted in their entirety. Respondent's Motion to
Dismiss is granted. The Petition is dismissed with prejudice as untimely. A certificate of appealability
is granted.

Date:

CLERK OF COURT
JOHN MORRILL, Clerk of Court
By: s/ A. Garcia

3/28/19

A. Garcia, Deputy

19

